App. 1
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

REED KIRK MCDONALD,
Plaintiff - Appellant,
v.
EAGLE COUNTY, a quasi­
municipal corporation and
political subdivision of the
State of Colorado; BELLCO
CREDIT UNION,

No. 19-1101
(D.C. No. 1:18-CV00105-CMA-NRN)
(D. Colo.)

Defendants - Appellees.

ORDER AND JUDGMENT*
(Filed Mar. 19, 2020)
Before TYMKOVICH, Chief Judge, HARTZ and
BACHARACH, Circuit Judges.

* After examining the briefs and appellate record, this panel
has determined unanimously that oral argument would not ma­
terially assist in the determination of this appeal. See Fed. R.
App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore or­
dered submitted without oral argument. This order and judgment
is not binding precedent, except under the doctrines of law of the
case, res judicata, and collateral estoppel. It may be cited, how­
ever, for its persuasive value consistent with Fed. R. App. P. 32.1
and 10th Cir. R. 32.1.

App. 2
Reed Kirk McDonald appeals from the district
court’s order granting Eagle County’s and Bellco
Credit Union’s (“Bellco”) motions to dismiss under
Fed. R. Civ. R 12(b)(1), and awarding them attorney
fees incurred in defending against McDonald’s suit.
Exercising jurisdiction under 28 U.S.C. § 1291, we af­
firm the dismissal and award of fees; however, we re­
mand the case for the court to amend the judgment to
reflect a dismissal without prejudice.

I. BACKGROUND
McDonald’s federal suit was based on two unre­
lated Colorado state court cases.
A. Eagle County Suit
The first suit, filed in 2009 in Eagle County Dis­
trict Court (“Eagle Court”), was an action by McDonald
against Zions First National Bank (“Zions”), in which
he alleged Zions breached a loan agreement and the
duty of good faith and fair dealing when it failed to
advance the draws he requested. Zions denied the al­
legations and counterclaimed for a deficiency judg­
ment. Shortly after the Eagle Court granted summary
judgment in favor of Zions on McDonald’s claims, Zions
voluntarily dismissed its counterclaim without preju­
dice. Thereafter, the Eagle Court awarded Zions
$102,267.75 in attorney fees and costs incurred in de­
fending against McDonald’s suit.

App. 3
When McDonald tried to appeal—including an ap­
peal of Zions’s voluntary dismissal of its counterclaim
without prejudice—the Colorado Court of Appeals or­
dered him to obtain certification under Colo. R. Civ. P.
54(b), “because the cross-claims [sic] were dismissed
without prejudice, [and therefore] an appealable order
has not entered.” R., Vol. I at 30. The court noted if it
“had found that a final and appealable order had been
entered, it would have found that the time for filing an
appeal had not started to run because there was no
evidence that [McDonald] ever was served a copy of the
[Eagle Court’s] order.” Id. at 30-31. McDonald’s appeal
was dismissed when he failed to obtain certification.
Sometime later, as part of its efforts to collect the judg­
ment for attorney fees and costs, Zions obtained a writ
of garnishment from the Eagle Court for an account
McDonald maintained at Bellco.
B. Arapahoe County Suit
The second suit, filed by Bellco in county court in
Arapahoe County in 2016, was a collection action
against McDonald for an unpaid debt of $14,664.09—
it had nothing to do with Zions’s garnishment of
McDonald’s Bellco account several years earlier in the
Eagle Court litigation. Nonetheless, McDonald filed
counterclaims against Bellco and a third-party claim
against Eagle County for perceived violations of his
due process right by the Eagle Court in the 2009 suit.
At the same time, McDonald removed the action to the
Arapahoe County district court (the “Arapahoe County
litigation”). Eventually, McDonald’s counterclaims and

App. 4
third-party claims were dismissed, leaving only
Bellco’s original collection claim.
C. Federal Court Suit
Shortly after Bellco filed a motion for summary
judgment in the Arapahoe County litigation, McDonald
sued Eagle County in federal court. Days later, McDon­
ald attempted to avoid summary judgment by filing a
pleading in the federal suit titled “Notice of Removal
. . . Complaint and Jury Demand,” id. at 246, which
asserted four claims against Bellco. From that point
forward, McDonald maintained—and continues to
maintain—there was no state proceeding because the
Arapahoe County litigation had been removed to fed­
eral court.
Next, McDonald filed an amended complaint in
the federal suit adding Bellco as a defendant. The
amended complaint also alleged four claims against
Eagle County, all of which were based on the outcome
in the Eagle Court litigation: (1) under 42 U.S.C. § 1983
for violating his Fifth and Fourteenth Amendment
rights by “fail[ing] its obligation to obey the Court of
Appeals Order [to provide] due process and equal pro­
tection” and by “refusing to conclude the [litigation in
Eagle Court], id. at 314; (2) under § 1983 for violating
his Fourth Amendment rights by “knowingly fil[ing]
and issuing] [a] writ allowing [Zions] to seize Plain­
tiff’s bank accounts to financially prevent [him] from
pursuing his civil case,” R., Vol. I at 316; (3) under
§ 1983 for violating “the United States Constitution”

App. 5
by “knowingly and improperly refusing] under color of
state law to allow Plaintiff to present his case against
[Zions],” id. at 317; and (4) under 42 U.S.C. § 1985 for
conspiring with the clerk of the Eagle Court and Zions
to violate his civil rights.
As to Bellco, McDonald realleged the failed de­
fenses and/or counterclaims he raised in the Arapahoe
County suit: (1) violation of his Fourteenth Amend­
ment rights by refusing to dismiss its collection suit
and “conspiring] with [the] state court to prosecute a
civil action out-of-time in violation of Colorado’s stat­
ute of limitations,” id. at 320; (2) violation of the federal
Fair Debt Collection Practices Act; (3) violation of
Colorado’s Fair Debt Collection Practices Act; and (4)
violation of his First Amendment rights to privacy “by
trespassing his gated property to illegally search and
seize Plaintiff’s personal property,” id. at 324.
D. Disposition of Federal and Arapahoe
County Litigation
Thereafter, the Arapahoe County district court
determined McDonald’s attempted removal was im­
proper and entered summary judgment in favor of
Bellco on its collection claim. McDonald appealed.
While McDonald’s appeal was pending, Eagle
County and Bellco moved to dismiss the federal suit on
several grounds. Relevant to the issues on appeal, the
magistrate judge recommended the following: (1) dis­
missal of the claims against Eagle County for lack of
subject-matter jurisdiction under the Rooker-Feldman

App. 6
doctrine1; (2) dismissal of the claims against Bellco
under the Younger abstention doctrine2 if the statecourt proceedings had not concluded, or under RookerFeldman if the proceedings were completed; and (3) an
award of attorney fees to Eagle County and Bellco.
In his objections to the magistrate judge’s recom­
mendations, McDonald argued that Rooker-Feldman
and Younger did not apply, and in any event, the dis­
missal should be without prejudice. On de novo review,
the district court affirmed the magistrate judge’s rec­
ommendation to dismiss the claims with prejudice un­
der Rooker-Feldman and Younger. The district court
reviewed the recommendation to award attorney fees
for clear error and affirmed.
An “update” recently filed by McDonald confirms
the Arapahoe County suit is still ongoing. Shortly after
the federal district court entered its order in March 2019,
the Colorado Court of Appeals decided McDonald’s
appeal, affirming the state court’s judgment. Bellco
Credit Union v. McDonald, No. 18CA0689, 2019 WL
1873422 (Colo. App. Apr. 25, 2019) (unpublished).
When the Colorado Supreme Court denied certiorari
review, McDonald v. Bellco Credit Union, No. 19SC475,
2019 WL 4643619 (Colo. Sept. 23,2019) (unpublished),
McDonald filed a petition for a writ of certiorari in the
United States Supreme Court, which has not been

1 See Rooker v. Fid. Tr. Co., 263 U.S. 413 (1923); D.C. Court
ofAppeals v. Feldman, 460 U.S. 462 (1983).
2 See Younger v. Harris, 401 U.S. 37 (1971).

App. 7
resolved. McDonald v. Bellco Credit Union, 2020 WL
290965 (U.S. Jan. 15, 2020) (No. 19-895).
II. STANDARD OF REVIEW
We review de novo the district court’s dismissal
under both the Rooker-Feldman doctrine and the
Younger abstention doctrine. Campbell v. City of
Spencer, 682 F.3d 1278, 1281 (10th Cir. 2012) (RookerFeldman); Taylor v. Jaquez, 126 F.3d 1294, 1296 (10th
Cir. 1997) {Younger).
III. ANALYSIS
A. Claims Against Eagle County
The Rooker-Feldman doctrine bars “cases brought
by state-court losers complaining of injuries caused
by state-court judgments rendered before the district
court proceedings commenced and inviting district
court review and rejection of those judgments.” Exxon
Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280,
284 (2005).
McDonald argues the district court erred by deter­
mining his claims against Eagle County are barred by
Rooker-Feldman. We will not consider McDonald’s ar­
gument because he has failed to adequately brief the
issue; instead, he continues to denounce the actions of
the Eagle County District Court, Bellco, the magistrate
judge, and the district court. McDonald’s failure to ad­
equately brief the issue means that we will not con­
sider the issue on appeal. See Holmes v. Colo. Coal. For

App. 8
Homeless Long Term Disability Plan, 762 F.3d 1195,
1199 (10th Cir. 2014) (declining to consider arguments
on appeal that were inadequately briefed); Murrell v.
Shalala, 43 F.3d 1388, 1390 n.2 (10th Cir. 1994) (de­
clining to consider “a few scattered statements” and
“perfunctory” arguments that failed to develop an is­
sue).
We affirm the district court’s dismissal of McDonald’s
claims against Eagle County as barred by RookerFeldman.
B. Claims Against Bellco
In contrast with the Rooker-Feldman doctrine, the
Younger abstention doctrine applies when state pro­
ceedings have not concluded; it “dictates that federal
courts not interfere with state court proceedings by
granting equitable relief—such as injunctions of im­
portant state proceedings or declaratory judgments
regarding constitutional issues in those proceed­
ings—when such relief could adequately be sought be­
fore the state court.” Amanatullah v. Colo. Bd. of Med.
Exam’rs, 187 F.3d 1160,1163 (10th Cir. 1999) (internal
quotation marks omitted). Younger abstention is non­
discretionary and must be applied when three condi­
tions exist:
(1) there is an ongoing state criminal, civil, or
administrative proceeding, (2) the state court
provides an adequate forum to hear the
claims raised in the federal complaint, and (3)
the state proceedings involve important state

App. 9
interests, matters which traditionally look to
state law for their resolution or implicate sep­
arately articulated state policies.
Id. (internal quotation marks omitted).
Once again, we will not consider McDonald’s argu­
ment because he has failed to adequately brief the
issue; instead of addressing Younger, he excoriates the
Eagle County District Court, Bellco, the magistrate
judge, and the district court. McDonald’s failure to
adequately brief the issue means that we will not con­
sider the issue on appeal. See Holmes, 762 F.3d at 1199;
Murrell, 43 F.3d at 1390 n.2.
We affirm the district court’s dismissal of McDon­
ald’s claims against Bellco under Younger.
C. Attorney Fees
The record shows that McDonald failed to object
to the magistrate judge’s recommendation to award
Eagle County and Bellco their attorney fees incurred
in defending against the amended complaint. “We have
adopted a firm waiver rule when a party fails to object
to the findings and recommendations of the magis­
trate.” Duffield v. Jackson, 545 F.3d 1234, 1237 (10th
Cir. 2008) (brackets and internal quotation marks
omitted). “The failure to timely object to a magistrate’s
recommendations waives appellate review of both fac­
tual and legal questions.” Id. (internal quotation
marks omitted). There are two exceptions to the rule;
however, neither exception applies here. As such, we
will not consider the issue on appeal.

App. 10
IV. CONCLUSION
We affirm the district court’s order of dismissal
and award of attorney fees and remand only for the
district court to amend its judgment to reflect that the
dismissal is without prejudice. “A longstanding line of
cases from this circuit holds that where the district
court dismisses an action for lack of jurisdiction, as it
did here, the dismissal must be without prejudice.”
Brereton v. Bountiful City Corp., 434 F.3d 1213, 1216
(10th Cir. 2006). See also Chapman v. Oklahoma, 472
F.3d 747, 750 (10th Cir. 2006) (addressing Younger).
Entered for the Court
Timothy M. Tymkovich
Chief Judge

App. 11
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Christine M. Arguello
Civil Action No. 18-cv-00105-CMA-NRN
REED KIRK McDONALD,
Plaintiff,
v.
EAGLE COUNTY, a quasimunicipal corporation and
political subdivision of the State of Colorado, and
BELLCO CREDIT UNION,
Defendants.
ORDER AFFIRMING THE DECEMBER 12, 2018
RECOMMENDATION OF UNITED STATES
MAGISTRATE JUDGE AND GRANTING
MOTIONS TO DISMISS
(Filed Mar. 6, 2019)
The matter is before the Court upon the December
12, 2018 Recommendation by United States Magis­
trate Judge N. Reid Neureiter that this Court grant
Defendants’ Motions to Dismiss (Doc. ## 23, 31). (Doc.
# 67.) The Court finds Plaintiff Reed K. McDonald’s
Objection to the Recommendation (Doc. # 77) to be un­
persuasive for the reasons described herein and over­
rules it. The Court affirms and adopts Magistrate
Judge Neureiter’s Recommendation and grants De­
fendants Eagle County’s and Bellco Credit Union’s
(“Defendant Bellco”) Motions to Dismiss.

App. 12
I. BACKGROUND
This action arises out of two unrelated state court
cases. (Doc. # 67 at 2.)
A. CLAIMS RELATED TO THE LITIGATION IN
EAGLE COUNTY
First, in September 2009, Plaintiff brought suit in
the District Court for Eagle County, Colorado, against
third party Zions First National Bank (“Zions Bank”)
for issues related to a loan Zions Bank previously made
to Plaintiff (the “Litigation in Eagle County”). (Doc.
# 31-3.) Plaintiff claimed that Zions Bank “breached
the contract—a loan agreement—by failing to advance
requested draws” and that it “breached the duty of
good faith and fair dealing in the same manner.” See
(Doc. # 31-1 at 4.) Zions Bank asserted a counterclaim
for a deficiency judgment against Plaintiff. See (id.)
The Eagle County District Court dismissed Plaintiff’s
claims against Zions Bank on summary judgment on
March 3,2011 (id. at 5), and Zions Bank voluntary dis­
missed its counterclaim against Plaintiff on March 18,
2011, see (Doc. # 31-3 at 13; Doc. # 1-1 at 1). The Eagle
County District Court awarded Zions Bank attorneys’
fees and costs in the amount of $102,267.75 on April 7,
2011.1 (Doc. # 31-3 at 12; Doc. # 31-2 at 2).

1 Having reviewed all exhibits to the pleadings, the Court
disagrees with Magistrate Judge Neureiter’s description of the
outcome of the Litigation in Eagle County. See (Doc. # 67 at 2.)
Magistrate Judge Neureiter wrote that the Eagle County District
Court entered judgment against Plaintiff in the amount of

App. 13
Plaintiff subsequently appealed the Eagle County
District Court’s decision to summarily dismiss his
claims and terminate the case to the Colorado Court of
Appeals. On or about November 2, 2011, the Court of
Appeals rejected the appeal on the ground that be­
cause the Eagle County District Court dismissed Zions
Bank’s counterclaim without prejudice, “an appealable
order [had] not been entered” by the Eagle County Dis­
trict Court. (Doc. # 1-1 at 3-4.) The Court of Appeals
noted as an aside that “it [did] not appear that the pro
se plaintiff [Plaintiff] was ever properly served with
the Orders of the district court ... If this Court had
found that a final and appealable order had been en­
tered, it would have found that the time for filing an
appeal had not started to run because there is no evi­
dence that Plaintiff was served with a copy of the dis­
trict court’s orders.” (Id.) Approximately a year later,
the Eagle County District Court issued a writ of gar­
nishment on Plaintiff’s account with Defendant Bellco.
See (Doc. # 31-3 at 7.)
In the action presently before this Court, Plaintiff
asserts that the Colorado Court of Appeals ordered De­
fendant Eagle County in its November 2, 2011 Order
“to restore ‘due process’ and ‘equal protection of the
law’ in its proceedings” but that Defendant Eagle
County “knowingly refused to obey” the Court of
$102,267.75, see (id.), but the record reveals that Zions Bank had
voluntarily dismissed its counterclaim on March 18, 2011, and
that the $102,267.75 amount was an award of attorneys’ fees and
costs. However, Magistrate Judge Neureiter’s minor mischaracterization of the Litigation in Eagle County does not impact the
accuracy of his analysis.

App. 14
Appeal’s order. (Doc. # 14 at 1-2.) Plaintiff raises the
following claims against Defendant Eagle County, all
of which arise out of the outcome of the Litigation in
Eagle County: (1) a claim under 42 U.S.C. § 1983 for
violating his Fifth and Fourteenth Amendment rights
by “failing] its obligation to obey the Court of Appeals
Order [to provide] due process and equal protection”
and by “refusing to conclude the [Litigation in Eagle
County];” (2) a claim under 42 U.S.C. § 1983 for violat­
ing his Fourth Amendment rights by “knowingly
filling] and issuing] [a] writ allowing [Zions Bank] to
seize Plaintiff’s bank accounts to financially prevent
[him] from pursuing his civil case;” (3) a claim under
42 U.S.C. § 1983 for violating “the United States Con­
stitution” by “knowingly and improperly refusing] un­
der color of state law to allow Plaintiff to present his
case against [Zions Bank];” and (4) a claim under 42
U.S.C. § 1985 for conspiring with the Clerk of the Court
for the District Court of Eagle County and with Zions
Bank to violate his civil rights. {Id. at 17-22.)
B. CLAIMS RELATED TO LITIGATION IN
ARAPAHOE COUNTY
Second, in a completely unrelated proceeding, De­
fendant Bellco initiated a collection action on Decem­
ber 14, 2016, against Plaintiff in the District Court for
the County of Arapahoe, Colorado, for failure to make
payments on a car loan (the “Litigation in Arapahoe
County”). (Doc. # 67 at 3; Doc. # 31 at 3.) Plaintiff as­
serted several counterclaims against Defendant Bellco,
including claims under the federal Fair Debt Collection

App. 15
Practices Act, 15 U.S.C. § 1692, et seq. (the “federal
FDCPA”) and the Colorado Fair Debt Collection Prac­
tices Act, Colo. Rev. Stat. § 15-16-101, et seq. (the “Col­
orado FDCPA”). (Doc. # 31-4 at 21-30.) Plaintiff also
attempted to join Defendant Eagle County as a thirdparty defendant in the Litigation in Arapahoe County,
alleging that the Litigation in Arapahoe County was
related to the prior Litigation in Eagle County because
of the garnishments entered in the latter. (Id.) The
Arapahoe County District Court dismissed all of Plain­
tiff’s counterclaims against Defendant Bellco and De­
fendant Eagle County on September 7, 2017, leaving
only Defendant Bellco’s original collections claim. (Doc.
# 31-5.)
Defendant Bellco moved for summary judgment in
the Litigation in Arapahoe County on December 27,
2017. (Doc. # 31 at 4.)
On January 12, 2018, Plaintiff filed this action
against Defendant Eagle County alone. (Doc. # 1.) On
January 24, 2018, Plaintiff filed a Notice of Removal
with this Court to remove the Litigation in Arapahoe
County, asserting that the Litigation in Arapahoe
County was “intertwined” with his case against De­
fendant Eagle County before this Court. (Doc. # 6.)
In the Litigation in Arapahoe County, Plaintiff
then contended that the Arapahoe County District
Court no longer had jurisdiction. (Doc. # 31-6 at 1.)
On March 8, 2018, Plaintiff filed an Amended
Complaint in this action, adding Defendant Bellco as a
defendant. (Doc. # 14.) Plaintiff argues that “Bellco’s

App. 16
case is intertwined with Eagle Counties [sic] miscon­
duct.” (Id. at 2.) He asserts four causes of action
against Defendant Bellco: (1) violation of his Four­
teenth Amendment rights by refusing to dismiss its
civil action and by “conspiring] with state court to
prosecute a civil action out-of-time in violation of Col­
orado’s statute of limitations;” (2) violation of the fed­
eral FDCPA; (3) violation of the Colorado FDCPA; and
(4) violation of his First Amendment rights to privacy
“by trespassing his gated property to illegally search
and seize Plaintiff’s personal property.” (Id. at 22-27.)
On March 14, 2018, the Arapahoe County District
Court granted summary judgment in favor of Defend­
ant Bellco and entered judgment in its favor in the
amount of $14,664.09 in the Litigation in Arapahoe
County. (Doc. # 31-7.) Plaintiff is appealing the judg­
ment of the Arapahoe County District Court in the Lit­
igation in Arapahoe County. (Doc. # 31-8; Doc. # 31 at
4.)
C. PROCEDURAL HISTORY
As the Court just described, Plaintiff alleges four
causes of action against Defendant Eagle County and
four separate causes of action against Defendant
Bellco. See (Doc. # 14.)
Defendant Eagle County moved to dismiss all
claims against it on April 13, 2018, arguing that Plain­
tiff’s claims are barred by the Rooker-Feldman doc­
trine and name the wrong defendant. (Doc. # 23.)
Plaintiff filed his Response on May 4, 2018 (Doc. # 33),

App. 17
to which Defendant Eagle County replied on May 18,
2018 (Doc. # 35).
Defendant Bellco filed its Motion to Dismiss on
April 25, 2018, on the grounds that the Court lacks ju­
risdiction under the Younger abstention doctrine, that
Plaintiff’s federal and Colorado FDCPA claims are
barred by claim preclusion and issue preclusion, and
that Plaintiff fails to state a claim for relief in his other
claims. (Doc. # 31.) Plaintiff responded to the Motion to
Dismiss on May 22,2018. (Doc. # 38.) Defendant Bellco
replied in support of its motion on June 5, 2018. (Doc.
#42.)
Magistrate Judge Neureiter issued his Recom­
mendation on both Motions to Dismiss on December
12, 2018, advising that this Court should grant both
Motions to Dismiss. (Doc. # 67.) Plaintiff filed his Ob­
jection to the Recommendation on January 28, 2019
(Doc. # 77), to which Defendant Bellco responded on
February 7, 2019 (Doc. # 78), and Defendant Eagle
County responded on February 8, 2019 (Doc. # 79).
Plaintiff replied in support of his Objection on Febru­
ary 19, 2019. (Doc. # 80.)
Plaintiff has also filed a Motion for Summary
Judgment on all of his claims against Defendant Bellco
on June 26, 2018 (Doc. # 47), and a Motion to Exceed
Page Limits in his summary judgment motion (Doc.
# 49). Magistrate Judge has recommended that in light
of his Recommendation that the Court grant Defend­
ants’ Motions to Dismiss, the Court deny as moot these
other motions. (Doc. # 68.)

App. 18
II. APPLICABLE LEGAL STANDARDS
A. REVIEW OF A RECOMMENDATION
When a magistrate judge issues a recommenda­
tion on a dispositive matter, Fed. R. Civ. P. 72(b)(3) re­
quires that the district judge “determine de novo any
part of the magistrate judge’s [recommended] disposi­
tion that has been properly objected to.” An objection is
properly made if it is both timely and specific. United
States v. One Parcel of Real Property Known As 2121
East 30th Street, 73 F.3d 1057,1059 (10th Cir.1996). In
conducting its review, “[t]he district judge may accept,
reject, or modify the recommended disposition; receive
further evidence; or return the matter to the magis­
trate judge with instructions.” Fed. R. Civ. P. 72(b)(3).
B. PRO SE PLAINTIFF
Plaintiff proceeds pro se. The Court, therefore, re­
views his pleading “liberally and hold[s] [it] to a less
stringent standard than those drafted by attorneys.”
Trackwell v. United States, 472 F.3d 1242, 1243 (10th
Cir. 2007) (citations omitted). However, a pro se liti­
gant’s “conclusory allegations without supporting fac­
tual averments are insufficient to state a claim upon
which relief can be based.” Hall v. Bellmon, 935 F.2d
1106, 1110 (10th Cir. 1991). A court may not assume
that a plaintiff can prove facts that have not been al­
leged, or that a defendant has violated laws in ways
that a plaintiff has not alleged. Associated Gen. Con­
tractors of Cal., Inc. v. Cal. State Council of Carpenters,
459 U.S. 519, 526 (1983); see also Whitney v. New

App. 19
Mexico, 113 F.3d 1170,1173-74 (10th Cir. 1997) (a court
may not “supply additional factual allegations to round
out a plaintiff’s complaint”); Drake v. City of Fort Col­
lins, 927 F.2d 1156,1159 (10th Cir. 1991) (a court may
not “construct arguments or theories for the plaintiff
in the absence of any discussion of those issues”). Nor
does pro se status entitle a litigant to an application of
different rules. See Montoya v. Chao, 296 F.3d 952,957
(10th Cir. 2002).
C. FEDERAL RULE OF CIVIL PROCEDURE
12(B)(1)
Dismissal pursuant to Rule 12(b)(1) is appropriate
if the Court lacks subject matter jurisdiction over
claims for relief asserted in the complaint. “The burden
of establishing subject matter jurisdiction is on the
party asserting jurisdiction.” Port City Props, v. Union
Pac. R.R. Co. 24, 518 F.3d 1186, 1189 (10th Cir. 2008).
Rule 12(b)(1) challenges are generally presented in one
of two forms: “[t]he moving party may (1) facially at­
tack the complaint’s allegations as to the existence of
subject matter jurisdiction, or (2) go beyond allegations
contained in the complaint by presenting evidence to
challenge the factual basis upon which subject matter
jurisdiction rests.” Merrill Lynch Bus. Fin. Servs., Inc.
v. Nudell, 363 F.3d 1072,1074 (10th Cir. 2004) (quoting
Maestas v. Lujan, 351 F.3d 1001,1013 (10th Cir. 2003));
see Ruiz v. McDonnell, 299 F.3d 1173, 1180 (10th Cir.
2002). When reviewing a facial attack, a court takes
the allegations in the complaint as true, but when in
reviewing a factual attack, the court does not presume

App. 20
the truthfulness of the complaint’s factual allegations
and may consider affidavits or other documents to re­
solve jurisdictional facts. Holt v. United States, 46 F.3d
1000, 1002-03 (10th Cir. 1995). Defendant Eagle
County’s Motion to Dismiss launches a facial attack on
this Court’s subject matter jurisdiction. See (Doc. # 23
at 5.)
D. FEDERAL RULE OF CIVIL PROCEDURE
12(B)(6)
Federal Rule of Civil Procedure 12(b)(6) provides
that a defendant may move to dismiss a claim for “fail­
ure to state a claim upon which relief can be granted.”
Fed. R. Civ. P. 12(b)(6). “The court’s function on a Rule
12(b)(6) motion is not to weigh potential evidence that
the parties might present at trial, but to assess
whether the plaintiff’s complaint alone is legally suffi­
cient to state a claim for which relief may be granted.”
Dubbs v. Head Start, Inc., 336 F.3d 1194, 1201 (10th
Cir. 2003) (citations and quotation marks omitted).
“A court reviewing the sufficiency of a complaint
presumes all of plaintiff’s factual allegations are true
and construes them in the light most favorable to the
plaintiff.” Hall, 935 F.2d atll98. “To survive a motion
to dismiss, a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’ ” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (citing Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 570 (2007)). Plausibility, in the context of a
motion to dismiss, means that the plaintiff pleaded

App. 21
facts which allow “the court to draw the reasonable in­
ference that the defendant is liable for the misconduct
alleged.” Id. The Iqbal evaluation requires two prongs
of analysis. First, the court identifies “the allegations
in the complaint that are not entitled to the assump­
tion of truth,” that is, those allegations which are legal
conclusion, bare assertions, or merely conclusory. Id. at
679-81. Second, the Court considers the factual allega­
tions “to determine if they plausibly suggest an enti­
tlement to relief.” Id. at 681. If the allegations state a
plausible claim for relief, such claim survives the mo­
tion to dismiss. Id. at 679.
However, the court need not accept conclusory al­
legations without supporting factual averments.
Southern Disposal, Inc., v. Texas Waste, 161 F.3d 1259,
1262 (10th Cir. 1998). “[T]he tenet that a court must
accept as true all of the allegations contained in a com­
plaint is inapplicable to legal conclusions. Threadbare
recitals of the elements of a cause of action, supported
by mere conclusory statements, do not suffice.” Iqbal,
556 U.S. at 678. “Nor does the complaint suffice if it
tenders naked assertion [s] devoid of further factual en­
hancement.” Id. (citation omitted). “Where a complaint
pleads facts that are ‘merely consistent with’ a defend­
ant’s liability, it ‘stops short of the line between possi­
bility and plausibility of ‘entitlement to relief.’ ” Id.
(citation omitted).

App. 22
III. DISCUSSION
At the outset, the Court observes that Plaintiff’s
Objection—even when construed liberally—is largely
devoid of specific objections to Magistrate Judge Neureiter’s analysis. Moreover, many of Plaintiff’s objec­
tions are frivolous, conclusive, or immaterial. Plaintiff
has, consequently, waived de novo review of much of
the Magistrate Judge’s Recommendation. See In re
Griego, 64 F.3d 580, 583-84 (10th Cir. 1995). The Court
finds no clear error in the portions of the Recommen­
dation to which Plaintiff does not specifically object. It
limits the following de novo review to the portions of
the Recommendation to which Plaintiff unambigu­
ously objects.
A. CLAIMS AGAINST DEFENDANT EAGLE
COUNTY
Magistrate Judge Neureiter concluded that the
Court lacks subject matter jurisdiction over Plaintiff’s
claims against Defendant Eagle County pursuant to
the Rooker-Feldman doctrine and that Plaintiff fails to
state a claim against Defendant Eagle County upon
which relief can be granted. (Doc. # 67 at 8.) He recom­
mended that Plaintiff’s claims against Defendant Ea­
gle County be dismissed with prejudice. (Id. at 19.) The
Court affirms the Magistrate Judge’s conclusion.

App. 23
1

Dismissal is appropriate pursuant to Rule
12(b)(1) because the Court lacks subject
matter jurisdiction over Plaintiff’s claims
against Defendant Eagle County pursu­
ant to the Rooker-Feldman doctrine.

The Rooker-Feldman doctrine states that federal
district courts do not have subject matter jurisdiction
to review final state court judgments. Exxon Mobil
Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280, 283
(2005). Specifically, the doctrine bars federal review of
“cases brought by state-court losers complaining of in­
juries caused by state-court judgments rendered before
the district court proceedings commenced and inviting
district court review and rejection of those judgments.”
Id.', see also Bolden v. City of Topeka, 441 F.3d 1129,
1138 (10th Cir. 2006). The Rooker-Feldman doctrine
also bars federal district courts from considering
“claims inextricably intertwined with a prior statecourt judgment.” Tal v. Hogan, 453 F.3d 1244, 1256
(10th Cir. 2006); see also Dist. of Columbia Ct. of App.
v. Feldman, 460 U.S. 462, 483 n.16 (1983). A claim is
inextricably intertwined if “the state-court judgment
caused, actually and proximately, the injury for which
the federal-court plaintiff seeks redress.” (Id.) (internal
citations omitted). “In other words, if favorable resolu­
tion of a claim would upset a [state-court] judgment,
that claim is Rooker-barred . . . even if the underlying
issue was not raised or addressed in the state court
that handed down the judgment.” Bolden, 441 F.3d at
1140. Challenges brought pursuant to the Rooker-Feld­
man doctrine, like the challenge Defendant Eagle

App. 24
County raises in its Motion to Dismiss, see (Doc. # 23
at 4-5), are challenges to a federal court’s subject mat­
ter jurisdiction. See Merrill Lynch Bus. Fin. Servs., Inc.,
363 F.3d at 1074-75.
In this case, Magistrate Judge Neureiter deter­
mined that application of the Rooker-Feldman doctrine
deprives the Court of subject matter jurisdiction over
Plaintiff’s claims against Defendant Eagle County.
(Doc. # 67 at 10.) He summarized Plaintiff’s allegation
as follows: Defendant “Eagle County, apparently via
the Eagle County District Court, has failed the obey
the orders and directives of the Colorado Court of Ap­
peals and refuses to ‘conclude’ the [Litigation in Eagle
County],” {id. at 9); the Court agrees with the Magis­
trate Judge’s understanding of Plaintiff’s Complaint.
Magistrate Judge Neureiter then assessed that:
In effect, [Plaintiff] is asking the Court to re­
verse the state court’s dismissal of his claims
on summary judgment, to vacate the judg­
ment against [Plaintiff], and to somehow
undo the garnishment proceedings authorized
under Colorado law. Doing so would neces­
sarily upset the state court judgment. . . . The
Rooker-Feldman doctrine . . . precludes this
type of federal review of state court decisions.
{Id. at 9-10.)
Plaintiff’s objection that the Rooker-Feldman doc­
trine “is inapplicable to this because the Colorado
Court of Appeals had adjudged there is no judgment”
in the Litigation in Eagle County does not persuade

App. 25
the Court that Magistrate Judge Neureiter’s analysis
is incorrect. See (Doc. # 77 at 14-16.) Plaintiff misun­
derstands the decisions of the Eagle County District
Court and the Colorado Court of Appeals. First, Eagle
County District Court (indisputably a state court) did
issue a final judgment on Plaintiff’s claims against Zions Bank in the Litigation in Eagle County; it summar­
ily dismissed Plaintiff’s claims on March 3, 2011. (Doc.
# 31-1 at 4.) The Colorado Court of Appeals’ orders re­
garding Plaintiff’s attempted appeal, see (Doc. # 1-1),
did not impact the Eagle County District Court’s judg­
ment. The Court of Appeals only determined that be­
cause Zions Bank’s counterclaim against Plaintiff was
voluntarily dismissed on March 18,2011, without prej­
udice, an appealable order had not entered and that it
could therefore not entertain Plaintiff’s appeal. See
(id.) Its determination that an appealable order had
not entered in the Litigation in Eagle County does not
mean that, as Plaintiff contends, there was no judg­
ment in the Litigation in Eagle County. Plaintiff pro­
vides no support for his assumption otherwise.
The Court therefore rejects Plaintiff’s objection re­
garding the application of the Rooker-Feldman doc­
trine to Plaintiff’s claims against Defendant Eagle
County. The Court does not have subject matter juris­
diction over these claims.

App. 26
2. Dismissal is also appropriate pursuant
to Rule 12(b)(6) because Plaintiff fails to
allege claims against Defendant Eagle
Countv.
In addition to his conclusion that the Court is
without subject matter jurisdiction over Plaintiff’s
claims against Defendant Eagle Court, Magistrate
Judge Neureiter also concluded that Plaintiff fails to
allege claims upon which relief can be granted against
Defendant Eagle County, warranting dismissal under
Rule 12(b)(6).2 (Doc. # 67 at 10-11.) The Magistrate
Judge observed that though Plaintiff’s claims are
raised against Defendant Eagle County, his claims for
relief “are really directed at the Eagle County District
Court.” (Id. at 10.) None of Plaintiff’s allegations, such
as that “Defendant” failed to obey orders of the Colo­
rado Court of Appeals and refused to allow him to pre­
sent his case against Zions Bank, “pertain to actions
. . . taken by Eagle County,” Magistrate Judge Neu­
reiter described. (Id.) Rather, they concern actions of
the Eagle County District Court. (Id.) The Magistrate
Judge stated, “Eagle County and the Eagle County
District Court are not synonymous.” (Id.) He therefore
concluded that “Eagle County is not the proper
2 Despite its determination that it is without subject matter
jurisdiction over Plaintiff’s claims against Defendant Eagle
County, the Court nonetheless also considers Defendant Eagle
County’s additional argument that Plaintiff’s claims fail to state
a claim upon which relief can be granted in order to determine
whether it would be futile to dismiss Plaintiff’s claims without
prejudice. The Court addresses this further in Section III(C) be­
low.

App. 27
defendant for claims against the Colorado Judicial
Branch” and that Plaintiff fails to state any claims
against Defendant Eagle County upon which relief can
be granted. (Id. at 11.)
Plaintiff’s objection is without merit. He contends
that because “the people of each county dully [sic] elect
their district judges,” district courts “are perceived as
a county operative,” but he provides no authority for
that proposition. (Doc. # 77 at 2.) Plaintiff’s assertion
that “Colorado’s Attorney General’s Office . . . agrees [s]
[that] Eagle County, who dully [sic] elected all four
judges [to the district court] lie [sic] responsible for
their actions” is also without support and contrary to
law. See (id. at 12.) The Court therefore agrees with
Magistrate Judge Neureiter’s assessment that Plain­
tiff’s claims against Defendant Eagle County must be
dismissed pursuant to Rule 12(b)(6).
B. CLAIMS AGAINST DEFENDANT BELLCO
Magistrate Judge Neureiter agreed with all four
of Defendant Bellco’s arguments for dismissal of Plain­
tiff’s claims against it and therefore recommended
that Plaintiff’s claims against Defendant Bellco be dis­
missed with prejudice. (Doc. # 67 at 12-19.) The Court
affirms the Magistrate Judge’s recommendation,
though it declines to reach all four arguments.

App. 28
1. The Younger abstention doctrine requires
this Court to abstain from exercising ju­
risdiction over Plaintiff’s claims against
Defendant Bellco.
The Younger abstention doctrine “dictates that
federal courts not interfere with state court proceed­
ings by granting equitable relief—such as injunctions
of important state proceedings or declaratory judg­
ments regarding constitutional issues in those pro­
ceedings—when such relief could adequately be sought
before the state court.” Reinhardt v. Kelly, 164 F.3d
1296,1302 (10th Cir. 1999) (citing Quackenbush v. All­
state Ins. Co., 517 U.S. 706,716 (1996)). Pursuant to the
Younger abstention doctrine, a federal court must ab­
stain from exercising jurisdiction when: “(1) there is an
ongoing state criminal, civil, or administrative pro­
ceeding, (2) the state court provides an adequate forum
to hear the claims raised in the federal complaint, and
(3) the state proceedings ‘involve important state inter­
ests, matters which traditionally look to state law for
their resolution or implicate separately articulated
state policies.’” Amantullah u. Colo. Bd. of Med.
Exam’rs, 187 F.3d 1160,1163 (10th Cir. 1999) (quoting
Taylor v. Jaquez, 126 F.3d 1294,1297 (10th Cir. 1997),
cert denied, 523 U.S. 1005 (1998)). Where these three
conditions are met, “Younger abstention is non-discretionary and, absent extraordinary circumstances, a
district court is required to abstain.” Crown Point I,
LLC v. Intermountain Rural Elec. Ass’n, 319 F.3d 1211,
1215 (10th Cir. 2003) (citing Seneca-Cayuga Tribe v.
Okla., 874 F.2d 709, 711 (10th Cir. 1989)).

App. 29
In the case presently before the Court, Magistrate
Judge Neureiter concluded that “to the extent that the
[Litigation in Arapahoe County] is ongoing . . . , it is
appropriate for the Court to abstain from exercising
subject-matter jurisdiction under the Younger doc­
trine.” (Doc. # 67 at 13.) As to the first prerequisite to
Younger abstention, the Magistrate Judge that the Lit­
igation in Arapahoe County is an ongoing state civil
proceeding, assuming Plaintiff’s appeal has not yet
been resolved. (Id. at 12-13.) Second, Magistrate Judge
Neureiter determined that the state courts (the Arap­
ahoe County District Court and, presumably, the Colo­
rado Court of Appeals) provide an appropriate forum
to hear Plaintiff’s claims against Defendant Bellco, es­
pecially given that Plaintiff alleges that Defendant
Bellco knowingly “bore false witness” in the Litigation
in Arapahoe County and “colluded with the Court to
evade” liability. (Id.) Third, the Magistrate Judge was
satisfied that the Litigation in Arapahoe County in­
volve simportant state interests, “most notably Colo­
rado’s application of its statute of limitations.” (Id. at
12.) Magistrate Judge Neureiter therefore concluded
that this Court must abstain from exercising jurisdic­
tion over Plaintiff’s claims against Defendant Bellco
pursuant to the Younger doctrine, so long as the Liti­
gation in Arapahoe County is ongoing. (Id. at 13.) If the
Litigation in Araphoe County is no longer active, Mag­
istrate Judge Neureiter stated that the Rooker-Feldman doctrine, which this Court explained in Section
111(A)(1), applies to bar Plaintiff’s claims against De­
fendant Bellco. (Id.)

App. 30
Plaintiff’s Objection does not explicitly challenge
the application of the Younger abstention doctrine, but
Plaintiff does assert that “[s] imply, there is no state
Bellco case.” (Doc. # 77 at 11.) Reviewing the Objection
liberally, the Court understands this to be an objection
to Magistrate Judge Neureiter’s finding that the Liti­
gation in Arapahoe County constitutes an ongoing
state civil proceeding for purposes of Younger. See (Doc.
# 67 at 12-13.) Plaintiff contends that he removed the
Litigation in Arapahoe County to this Court on Janu­
ary 24, 2018, citing his Notice of Removal (Doc. # 6).
(Doc. # 77 at 10.) The Court disagrees; Plaintiff’s at­
tempt to remove the Litigation in Arapahoe County
was fatally flawed, and the Litigation in Arapahoe
County remains an ongoing state civil proceeding. As
Defendant Bellco cogently explains in its Response to
the Objection, see (Doc. # 78 at 5-7), Defendant Bellco,
the plaintiff in the Litigation in Arapahoe County,
“only brought a state law collections action that could
not be removed to federal court.” (Id. at 7.) The fact
that Plaintiff may have asserted a defense or counter­
claim under federal law did not give him the right to
remove the litigation. “[A] case may not be removed to
federal court solely because of a defense or counter­
claim arising under federal law.” Topeka Housing Auth.
v. Johnson, 404 F.3d 1245, 1247 (10th Cir. 2005). Ac­
cordingly, the Court rejects Plaintiff’s Objection to the
extent it takes issue with application of the Younger
abstention doctrine to his claims against Defendant
Bellco.

App. 31
2. Dismissal is also appropriate because De­
fendant Bellco was not properly joined in
this action.
Magistrate Judge Neureiter also concluded that
Defendant Bellco was improperly joined in this case,
constituting an additional ground for dismissal of
Plaintiff’s claims against Defendant Bellco. (Doc. # 67
at 16-17.) He explained that joinder of Defendant
Bellco was improper under Rule 19 because “[t]here is
no indication from the pleadings that [Defendant]
Bellco has an interest in [Plaintiff’s] claims against
[Defendant] Eagle County, or that its absence in this
case would affect these claims in any way.” (Id.) The
Magistrate Judge then stated that Defendant Bellco
also could not be joined as a permissive party under
Rule 20(a)(2) because Plaintiff’s “claims against [De­
fendant] Bellco are entirely unrelated to [his] claims
against [Defendant] Eagle County.” (Id. at 17.) He con­
tinued, “the only possible connection between the De­
fendants—that the writ of garnishment in [the
Litigation in Eagle County] was served on [Plaintiff’s]
Bellco bank account—has nothing to do with [Plain­
tiff’s] claim that [Defendant] Bellco acted improperly
in its attempt to collect on an unpaid loan.” (Id.)
The Court affirms Magistrate Judge Neureiter’s
determinations that joinder of Defendant Bellco was
improper and that dismissal with prejudice of the
claims alleged against it is appropriate. Though Plain­
tiff previously stated that the Litigation in Arapahoe
County was “intertwined” with his claims against De­
fendant Eagle County in this case, see (Doc. # 6 at 1),

App. 32
Plaintiff concedes in his Objection that the “separate
litigation in Arapahoe County . . . has noting [sic] to do
with this case, as the underly [sic] facts in that case
have noting [sic] to do with this case,” (Doc. # 77 at 18).
C. DISMISSAL OF CLAIMS WITH PREJUDICE
As the Court has already stated, Magistrate Judge
Neureiter recommended that all of Plaintiff’s claims
be dismissed with prejudice. (Doc. # 67 at 19.) The
Court affirms that dismissal of the action with preju­
dice is appropriate.
Plaintiff argues that dismissal of his Complaint
with prejudice is inappropriate and accuses the Mag­
istrate Judge of “weaponiz[ing] his personal opinion”
and “woefully disregarding] this District’s precedent
and that of the 10th Circuit Court of Appeals” by mak­
ing such a recommendation. (Doc. # 77 at 5.) He con­
tends that because Magistrate Judge recommended
dismissal of his Complaint for lack ofjurisdiction, “dis­
missal must be without prejudice.” {Id. at 6.) Though
Plaintiff is correct that where a district court deter­
mines that it lacks jurisdiction, “dismissal of a claim
must be without prejudice,” Albert v. Smith’s Food &
Drug Ctrs., Inc., 356 F.3d 1242, 1249 (10th Cir. 2004),
Plaintiff fails to comprehend that Magistrate Judge
Neureiter’s recommended dismissal of the action with
prejudice was premised on multiple grounds apart
from the lack of the Court’s jurisdiction. The Court has
already affirmed, for example, Magistrate Judge Neu­
reiter’s conclusion that Plaintiff’s claims against

App. 33
Defendant Eagle County must be dismissed pursuant
to Rule 12(b)(6) because Defendant Eagle County is
not the proper defendant.
Though pro se parties should generally be given
leave to amend, “it is appropriate to dismiss without
allowing amendment ‘where it is obvious that the
plaintiff cannot prevail on the facts [he] has alleged
and it would be futile to give [him] an opportunity to
amend.’" Knight v. Mooring Capital Fund, LLC, 749
F.3d 1180, 1190 (10th Cir. 2014) (quoting Gee v.
Pacheco, 627 F.3d 1178, 1195 (10th Cir. 2010)). In this
matter, the multiple alternative grounds for dismissal
of the Complaint that Magistrate Judge Neureiter de­
scribed and that this Court has affirmed are evidence
that further amendment of Plaintiff’s Complaint
would be futile. The Court agrees dismissal with prej­
udice is the proper outcome of this case.
IV. CONCLUSION
For the foregoing reasons, the Court AFFIRMS
AND ADOPTS the Recommendation of Magistrate
Judge Neureiter (Doc. # 67) as the findings and conclu­
sions of this Court. It is
FURTHER ORDERED that Defendant Eagle
County’s Motion to Dismiss (Doc. # 23) is GRANTED.
It is
FURTHER ORDERED that Defendant Bellco’s
Motion to Dismiss (Doc. # 31) is GRANTED. It is

App. 34
FURTHER ORDERED that this action is DIS­
MISSED WITH PREJUDICE in its entirety. It is
FURTHER ORDERED Plaintiff’s Motion for
Summary Judgment against Defendant Bellco (Doc.
# 47), his Motion to Exceed Page Limits (Doc. # 49), and
the Magistrate Judge’s Recommendation on those mo­
tions (Doc. # 68) are DENIED AS MOOT.
DATED: March 6, 2019
BY THE COURT:
/s/ Christine M. Arguello
CHRISTINE M. ARGUELLO
United States District Judge

App. 35
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 18-cv-00105-CMA-NRN
REED KIRK MCDONALD,
Plaintiff,
v.
EAGLE COUNTY, a quasimunicipal corporation and
political subdivision of the State of Colorado, and
BELLCO CREDIT UNION,
Defendants.
REPORT AND RECOMMENDATION ON
DEFENDANT EAGLE COUNTY, STATE OF
COLORADO’S MOTION TO DISMISS
(DKT. #23) and DEFENDANT BELLCO CREDIT
UNION’S MOTION TO DISMISS (DKT. #31)
(Filed Dec. 12, 2018)
N. Reid Neureiter
United State Magistrate Judge
This case is before the Court pursuant to Orders
(Dkt. ##26 & 32) issued by Judge Christine M. Arguello
referring Defendants Eagle County, State of Colorado
(“Eagle County”) and Bellco Credit Union’s (“Bellco”)
(collectively “Defendants”) respective Motions to Dis­
miss. (Dkt. ##23 & 31.) The Court has carefully consid­
ered the motions, Plaintiff Reed Kirk McDonald’s
Responses (Dkt. ##33 & 38), and Defendants’ Replies.
(Docket ##35 & 42.) The Court has taken judicial

App. 36
notice of the Court’s file, considered the applicable Fed­
eral Rules of Civil Procedure and case law, and makes
the following recommendation.

I. BACKGROUND
Mr. McDonald initiated this case by filing a Com­
plaint and Jury Demand against Eagle County. (Dkt.
#1.) On March 8,2018, he filed an Amended Complaint
in which he asserted additional claims against Bellco.1
(Dkt. #14.) Mr. McDonald proceeds pro se and the na­
ture of his claims are convoluted and difficult to ascer­
tain with any certainty. However, construing the
pleadings liberally, as it must, the Court gleans the
following.
This action stems from two unrelated state court
cases. First, Mr. McDonald alleges that in McDonald v.
Zions First Nat’l Bank, N.A., Eagle County District
Court Case No. 2009-cv-604 (the “Eagle County Litiga­
tion”), Eagle County refused to allow him to “present
his civil case” against Zions First National Bank, N.A.,
and successive Eagle County judges have “disobeyed
the Court of Appeals Orders.”2 (Dkt. #14 <H<|[ 24-29.)
Mr. McDonald’s claims in the Eagle County Litigation
1 Mr. McDonald erroneously labels Bellco a “Third-Party De­
fendant,” but Eagle County brings no claims against Bellco. Bellco
is just a defendant.
2 It appears that Mr. McDonald is referring to the fact that
the Colorado Court of Appeals found that he was not properly
served with orders from the Eagle County District Court. (Dkt.
#1-1.) Contrary to Mr. McDonald’s protestations, however, this
was not a “judgment” against Eagle County.

App. 37
were dismissed on summary judgment. (Dkt. #31-1.)3
Judgment was entered against him on April 7, 2011
in the amount of $102,267.75. (Dkt. ##31-2 & 31-3.)
A writ of garnishment was issued on Mr. McDonald’s
Bellco bank account. (Id.) All this somehow led to
Mr. McDonald’s arrest by the FBI.4 (Dkt. #14 ^1 36.)
Mr. McDonald asserts the following claims against
Eagle County: (1) Violations of his Fifth and Four­
teenth Amendment rights pursuant to 42 U.S.C. § 1983
by denying him equal protection and due process
within “its court proceedings”; (2) Violation of his
Fourth Amendment rights pursuant to 42 U.S.C.
§ 1983 for issuing a writ of garnishment and the issu­
ance of an unlawful arrest warrant; (3) Violations of
his Fifth and Fourteenth Amendment rights by deny­
ing equal protection and due process; and (4) Violation
of 42 U.S.C. § 1985 for conspiring to violate his civil
rights.
The second state court case relates to Mr. McDonald’s
claims against Bellco in Bellco Credit Union v. McDonald,
Arapahoe District Case No. 17-cv-162 (the “Arapahoe
County Litigation”). That case started as a county
court collections action initiated after Mr. McDonald

3 As discussed below, the Court may consider matters outside
the pleading when determining whether it has subject-matter ju­
risdiction over the case. See Sizova v. Nat’l Inst, of Standards &
Tech., 282 F.3d 1320, 1324 (10th Cir. 2002).
4 The Court notes that Mr. McDonald’s Amended Complaint
refers to exhibits that are not attached to the pleading.

App. 38
failed to pay on a car loan.5 Mr. McDonald counter­
claimed against Bellco under the state and federal
fair debt collection laws and attempted to join Eagle
County as a third-party defendant. (Dkt. #31-4.) The
matter was removed to Arapahoe County District
Court, and all claims save for Bellco’s original collec­
tions claims were dismissed, including Mr. McDonald’s
counterclaims against Bellco and the third-party claims
against Eagle County. (Dkt. #31-5.) Mr. McDonald im­
properly purported to remove the Arapahoe County
Litigation to this Court on January 24, 2018 (Dkt. #6),
and then argued in the state court case that the Arap­
ahoe County District Court did not have jurisdiction.
(Dkt. #31-6 at 1.) This strategy proved futile; on March
14, 2018, the Arapahoe County District Court entered
summary judgment in favor of Bellco. (Dkt. #31-7.)
Judgment in the amount of $14,664.09 was entered in
favor of Bellco and against Mr. McDonald on March 14,
2018. (Dkt. #31-8 at 9.) Mr. McDonald has appealed.
{Id. at 2.)
Mr. McDonald asserts the following claims against
Bellco: (1) Violation of the Fourteenth Amendment; (2)
Violation of the federal Fair Debt Collection Practices
Act (“FDCPA”); (3) Violation of Colorado’s FDCPA; and
(4) Violation of his First Amendment rights.
Defendants now move to dismiss Mr. McDonald’s
claims pursuant to Fed. R. Civ. P. 12(b)(1) and (12)(b)(6).
5 Mr. McDonald denies that the loan was for an automobile;
instead, he alleges that he borrowed money from Bellco to pay a
private attorney. (Dkt. #14 52.)

App. 39
II. LEGAL STANDARDS
a. Pro Se Plaintiff
Mr. McDonald is proceeding pro se. The Court,
therefore, “review [s] his pleadings and other papers
liberally and hold[s] them to a less stringent standard
than those drafted by attorneys.” Trackwell v. United
States, 472 F.3d 1242, 1243 (10th Cir. 2007) (citations
omitted). However, a pro se litigant’s “conclusory alle­
gations without supporting factual averments are in­
sufficient to state a claim upon which relief can be
based.” Hall v. Bellman, 935 F.2d 1106,1110 (10th Cir.
1991). A court may not assume that a plaintiff can
prove facts that have not been alleged, or that a de­
fendant has violated laws in ways that a plaintiff has
not alleged. Associated Gen. Contractors of Cal., Inc. v.
Cal. State Council of Carpenters, 459 U.S. 519, 526
(1983). See also Whitney v. New Mexico, 113 F.3d 1170,
1173-74 (10th Cir. 1997) (court may not “supply addi­
tional factual allegations to round out a plaintiff’s
complaint”); Drake v. City of Fort Collins, 927 F.2d
1156, 1159 (10th Cir. 1991) (the court may not “con­
struct arguments or theories for the plaintiff in the ab­
sence of any discussion of those issues”). A plaintiff’s
pro se status does not entitle him to an application of
different rules. See Montoya v. Chao, 296 F.3d 952, 957
(10th Cir. 2002).
b. Lack of Subject Matter Jurisdiction
Federal Rule of Civil Procedure Rule 12(b)(1) em­
powers a court to dismiss a complaint for lack of

App. 40
subject matter jurisdiction. Fed. R. Civ. P. 12(b)(1). Dis­
missal under Rule 12(b)(1) is not a judgment on the
merits of a plaintiff’s case. Rather, it calls for a deter­
mination that the court lacks authority to adjudicate
the matter, attacking the existence of jurisdiction ra­
ther than the allegations of the complaint. See Cas­
taneda v. INS, 23 F.3d 1576, 1580 (10th Cir. 1994)
(recognizing federal courts are courts of limited juris­
diction and may only exercise jurisdiction when specif­
ically authorized to do so). The burden of establishing
subject matter jurisdiction is on the party asserting ju­
risdiction. Basso v. Utah Power & Light Co., 495 F.2d
906, 909 (10th Cir. 1974). A court lacking jurisdiction
“must dismiss the case at any stage of the proceedings
in which it becomes apparent that jurisdiction is lack­
ing.” Id. The dismissal is without prejudice. Brereton v.
Bountiful City Corp., 434 F.3d 1213, 1218 (10th Cir.
2006)
A Rule 12(b)(1) motion to dismiss “must be deter­
mined from the allegations of fact in the complaint,
without regard to mere conclusionary allegations of
jurisdiction.” Groundhog v. Keeler, 442 F.2d 674, 677
(10th Cir. 1971). When considering a Rule 12(b)(1) mo­
tion, however, the Court may consider matters outside
the pleadings without transforming the motion into
one for summary judgment. Holt v. United States, 46
F.3d 1000, 1003 (10th Cir. 1995). Where a party chal­
lenges the facts upon which subject matter jurisdic­
tion depends, a district court may not presume the
truthfulness of the complaint’s “factual allegations . . .
[and] has wide discretion to allow affidavits, other

App. 41
documents, and [may even hold] a limited evidentiary
hearing to resolve disputed jurisdictional facts under
Rule 12(b)(1) rid.
c. Failure to State a Claim Upon Which Relief
Can Be Granted
Federal Rule of Civil Procedure 12(b)(6) provides
that a defendant may move to dismiss a claim for “fail­
ure to state a claim upon which relief can be granted.”
Fed. R. Civ. P. 12(b)(6). “The court’s function on a Rule
12(b)(6) motion is not to weigh potential evidence
that the parties might present at trial, but to assess
whether the plaintiff’s complaint alone is legally suffi­
cient to state a claim for which relief may be granted.”
Dubbs v. Head Start, Inc., 336 F.3d 1194, 1201 (10th
Cir. 2003) (citations and quotation marks omitted).
“A court reviewing the sufficiency of a complaint
presumes all of plaintiff’s factual allegations are true
and construes them in the light most favorable to the
plaintiff.” Hall, 935 F.2d at 1198. “To survive a motion
to dismiss, a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’ ” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (citing Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 570 (2007)). Plausibility, in the context of a
motion to dismiss, means that the plaintiff pleaded
facts which allow “the court to draw the reasonable in­
ference that the defendant is liable for the misconduct
alleged.” Id. The Iqbal evaluation requires two prongs
of analysis. First, the court identifies “the allegations

App. 42
in the complaint that are not entitled to the assump­
tion of truth,” that is, those allegations which are legal
conclusions, bare assertions, or merely conclusory. Id.
at 679-81. Second, the court considers the factual alle­
gations “to determine if they plausibly suggest an en­
titlement to relief.” Id. at 681. If the allegations state
a plausible claim for relief, such claim survives the mo­
tion to dismiss. Id. at 679.
However, the court need not accept conclusory
allegations without supporting factual averments.
Southern Disposal, Inc., u. Texas Waste, 161 F.3d 1259,
1262 (10th Cir. 1998). “[T]he tenet that a court must
accept as true all of the allegations contained in a com­
plaint is inapplicable to legal conclusions. Threadbare
recitals of the elements of a cause of action, supported
by mere conclusory statements, do not suffice.” Iqbal,
556 U.S. at 678. Moreover, “[a] pleading that offers ‘la­
bels and conclusions’ or ‘a formulaic recitation of the
elements of a cause of action will not do.’ Nor does the
complaint suffice if it tenders ‘naked assertion [s]’ de­
void of ‘further factual enhancement.’ ” Id. (citation
omitted). “Where a complaint pleads facts that are
‘merely consistent with’ a defendant’s liability, it ‘stops
short of the line between possibility and plausibility of
‘entitlement to relief.’ ” Id. (citation omitted).
In assessing a motion to dismiss under Rule
12(b)(6), the usual rule is that a court should consider
no evidence beyond the pleadings. See Alvarado v.
KOB-TV, L.L.C., 493 F.3d 1210, 1216 (10th Cir.2007).
“If, on a motion under Rule 12(b)(6) . . . , matters out­
side the pleadings are presented to and not excluded

App. 43
by the court, the motion must be treated as one for
summary judgment under Rule 56.” Fed. R. Civ. R
12(d). However, “the district court may consider docu­
ments referred to in the complaint if the documents
are central to the plaintiff’s claim and the parties do
not dispute the documents’ authenticity.” Alvarado,
493 F.3d at 1216 (quoting Jacobsen v. Deseret Book Co.,
287 F.3d 936, 941 (10th Cir. 2002)); see also GFF Corp.
v. Associated Wholesale Grocers, Inc., 130 F.3d 1381,
1384 (10th Cir.1997) (“[i]f a document is referenced in
and central to a complaint, a court need not convert the
motion but may consider that document on a motion to
dismiss.”). In addition, “facts subject to judicial notice
may be considered in a Rule 12(b)(6) motion without
converting the motion to dismiss into a motion for
summary judgment.” Tal v. Hogan, 453 F.3d 1244,1264
n. 24 (10th Cir.2006).
III. ANALYSIS
a. Claims against Eagle County
Eagle County argues that the Court lacks subjectmatter jurisdiction over Mr. McDonald’s claims under
the Rooker-Feldman doctrine, and that Mr. McDonald’s
Amended Complaint fails to state a claim upon which
relief can be granted. The Court agrees.
i.

Rooker-Feldman Doctrine

Under 28 U.S.C. § 1257(a), “federal review of state
court judgments can be obtained only in the United
States Supreme Court.” Kiowa Indian Tribe ofOkla. v.

App. 44
Hoover, 150 F.3d 1163, 1169 (10th Cir. 1998). The
Rooker-Feldman doctrine stems from two United
States Supreme Court cases which interpret this limi­
tation on the review of state court judgments. See
D.C. Court ofAppeals v. Feldman, 460 U.S. 462 (1983);
Rooker v. Fidelity Trust Co., 263 U.S. 413 (1923). “The
Rooker-Feldman doctrine precludes ‘cases brought by
state-court losers complaining of injuries caused by
state-court judgments rendered before the district
court proceedings commenced and inviting district
court review and rejection of those judgments.”’ Tal,
453 F.3d at 1255-56 (10th Cir. 2006) (quoting Exxon
Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280,
284 (2005)). Accordingly, the doctrine forecloses “appel­
late review of [a] state judgment in a United States
district court, based on the losing party’s claim that the
state judgment itself violates the loser’s federal rights.”
Johnson v. De Grandy, 512 U.S. 997, 1005-06 (1994).
The doctrine “applies only to suits filed after state pro­
ceedings are final.” Guttman v. G.T.S. Khalsa, 446 F.3d
1027,1173 (10th Cir. 2006). Challenges brought pursu­
ant to the Rooker-Feldman doctrine are challenges to a
federal district court’s subject matter jurisdiction.
Crutchfield v. Countrywide Home Loans, 389 F.3d
1144,1147 (10th Cir. 2004).
The Rooker-Feldman doctrine is not limited to the
preclusion of claims actually litigated and decided on
the merits by the state court. It also precludes claims
which are inextricably intertwined with the state court
judgment. Tal, 453 F.3d at 1256. “A claim is inextrica­
bly intertwined if ‘the state-court judgment caused,

App. 45
actually and proximately, the injury for which the
federal-court plaintiff seeks redress.’” Id. (quoting
Kenmen Eng’g v. City of Union, 314 F.3d 468,478 (10th
Cir.2002)). “[I]f a favorable resolution of a claim would
upset a [state court] judgment, the claim is [barred un­
der the Rooker-Feldman doctrine] if it is ‘inextricably
intertwined’ with the judgment, even if the underlying
judgment issue was not raised or addressed in the
state court that handed down the judgment.” Bolden v.
City of Topeka, Kan., 441 F.3d 1129, 1140 (10th Cir.
2006). However, if the plaintiff presents an independ­
ent claim, even if it denies a legal conclusion that a
state court has reached, the federal district court has
jurisdiction. Id. at 1143 (citing Exxon, 544 U.S. at
1527).
Here, Mr. McDonald alleges that Eagle County,
apparently via the Eagle County District Court, has
failed to obey the orders and directives of the Colorado
Court of Appeals and refuses to “conclude” the Eagle
County Litigation. In effect, Mr. McDonald is asking
the Court to reverse the state court’s dismissal of his
claims on summary judgment, to vacate the entry of
judgment against Mr. McDonald, and to somehow undo
the garnishment proceedings authorized under Colo­
rado law. Doing so would necessarily upset the state
court judgment. As Judge Volz recognized when dis­
missing Mr. McDonald’s claims against Eagle County
in the Arapahoe County Litigation, “This Court cannot
review cases from another jurisdiction, nor can it re­
view the actions of judicial officers from the 5th Judi­
cial District. Such authority is vested in the State’s

App. 46
appellate courts and the federal courts, not this Court.”
(Dkt. #31-5 at 4.) The Rooker-Feldman doctrine simi­
larly precludes this type of federal review of state court
decisions.
ii. Failure to State a Claim
Even if the Rooker-Feldman doctrine did not bar
Mr. McDonald’s claims against Eagle County, they still
fail as a matter of law. As Eagle County notes, Mr.
McDonald’s constitutional claims for relief are really
directed at the Eagle County District Court. In his
Amended Complaint, Mr. McDonald makes it clear
that he objects to the actions taken by the Eagle
County District Court in (1) failing to obey orders of
the Colorado Court of Appeals; (2) issuing an arrest
warrant; (3) authorizing the garnishment of his bank
account; (4) refusing to allow Mr. McDonald to present
his case against Zions First National Bank; and (5)
conspiring with the bank to “thwart” him from prose­
cuting his civil action.” (Dkt. #14 ff 86-125.) However,
none of these allegations pertain to actions allegedly
taken by Eagle County. Eagle County and the Eagle
County District Court are not synonymous. In Colo­
rado, counties are political subdivisions of the State of
Colorado that exist to administer state programs on a
local level. As an administrative branch of government,
counties do not have a court system of their own. In­
stead, the judicial power of the state is “vested in a su­
preme court, district courts,. . . county courts, and such
other courts or judicial officers with jurisdiction infe­
rior to the supreme court!.]” Colo. Const, art. VI, § 1.

App. 47
The state judicial system represents a separate branch
of government that operates independent of any Colo­
rado county.
Thus, the actions of district court judges cannot,
by definition, give rise to a municipal liability claim
against a county government because district court
judges are state, not county, employees. In other words,
Eagle County is not the proper defendant for claims
against the Colorado Judicial Branch.
Moreover, Mr. McDonald’s Amended Complaint is
devoid of any allegations that Eagle County had a pol­
icy or custom which led to any of the alleged constitu­
tional violations. Therefore his 42 U.S.C. § 1983 claims
should be dismissed. See Jiron v. City of Lakewood, 392
F.3d 410, 419 (10th Cir. 2004) (to state a claim for mu­
nicipal liability, a party must allege sufficient facts
to demonstrate it is plausible that (1) the municipal
employee committed a constitutional violation; and
(2) a municipal policy or custom was the moving force
behind the constitutional deprivation). Nor has Mr.
McDonald sufficiently alleged that Eagle County en­
gaged in a civil rights conspiracy under 42 U.S.C.
§ 1985. Indeed, he does not even specify under which
part of § 1985 his claim arises.
Accordingly, Mr. McDonald fails to state any
claims against Eagle County upon which relief can be
granted.

App. 48
b. Claims against Bellco
Bellco argues that the Amended Complaint should
dismissed (1) under the Younger abstention doctrine;
(2) based on claim and issue preclusion; (3) for failing
to state a claim; and (4) for improper joinder. The Court
will address each in turn.
i.

Younger Abstention

First, Bellco claims that Younger v. Harris, 401
U.S. 37 (1971), requires the Court to abstain from in­
terfering with pending state court proceedings. The
Younger doctrine applies when (1) there is an ongoing
civil proceeding, (2) there is an adequate state forum
to raise the plaintiff’s claims, and (3) the state proceed­
ings involve important state interests. Amanatullah v.
Colo. Bd. of Med. Exam’rs, 187 F.3d 1160, 1163 (10th
Cir. 1999). Citing the three Younger factors, Bellco ar­
gues that abstention is appropriate here because first,
there is an ongoing state civil proceeding, namely, the
Arapahoe County Litigation. Second, Bellco maintains
that nearly all of Mr. McDonald’s claims in the case at
bar relate to the Arapahoe County Litigation, and that
if the Court granted Mr. McDonald’s requested relief,
it would necessarily have to overturn the state court’s
granting of summary judgment in Bellco’s favor. Fi­
nally, Bellco claims that the Arapahoe County Litiga­
tion involves important state interests, most notably
Colorado’s application of its statute of limitations.
In his Amended Complaint, Mr. McDonald alleges
that Bellco: “knowingly concealed or knowingly and

App. 49
improperly bore false witness” in the Arapahoe County
Litigation; failed to obey Colorado Court of Appeals or­
ders; “refused and continues refusing to dismiss” the
Arapahoe County Litigation; “redacted their own vol­
untary admission of wrongdoing” in the state court;
conspired to violate the applicable statute of limita­
tions; “colluded with the Court to evade” liability under
the state and federal FDCPA; and “invaded [his] right
to privacy by trespassing his gated property to illegally
search and seize Plaintiff’s personal property.”6 (Dkt.
#14 n 126-61.)
The Court finds that Mr. McDonald’s allegations
and claims for relief against Bellco, whether they are
brought under the Constitution or state and federal
law, are essentially collateral attacks on the determi­
nations and rulings made by the state court in the
Arapahoe County Litigation. To grant the relief Mr.
McDonald seeks, the Court would have to overrule
the state court’s determination that Mr. McDonald was
indebted to Bellco in the amount of $14,664.09, and
that the statute of limitations did not bar Bellco’s col­
lections action. (Dkt. #39-7.) Therefore, to the extent
that the Arapahoe County Litigation is ongoing (the
Court is unaware of the current status of Mr. McDon­
ald’s appeal), it is appropriate for the Court to abstain
from exercising subject-matter jurisdiction under the
Younger doctrine. If the Arapahoe County Litigation is

6 Reviewing Mr. McDonald’s Response, this seemingly refers
to the attempted repossession of an automobile. (Dkt. #38 at 18.)

App. 50
no longer active, then the Rooker-Feldman doctrine
applies to bar Mr. McDonald’s claims.
ii. Issue and Claim Preclusion
Next, Bellco argues that Mr. McDonald’s claims
are barred by the doctrines of claim preclusion and is­
sue preclusion.
A party asserting the defense of issue preclusion
must establish four elements:
(1) the issue previously decided is identical
with the one presented in the action in ques­
tion, (2) the prior action has been finally adju­
dicated on the merits, (3) the party against
whom the doctrine is invoked was a party or
in privity with a party to the prior adjudica­
tion, and (4) the party against whom the doc­
trine is raised had a full and fair opportunity
to litigate the issue in the prior action.
Moss v. Kopp, 559 F.3d 1155,1161 (10th Cir. 2009).
Claim preclusion, on the other hand, requires a
judgment on the merits in an earlier action, identity of
the parties in the two suits, and identity of the cause
of action in both suits. Yapp v. Excel Corp., 186 F.3d
1222,1226 (10th Cir. 1999). To determine whether the
claims in two suits are identical, it must be determined
whether the claims arise out of the same transaction,
or a series of connected transactions. Id. at 1227. “[A]
new action will be permitted only where it raises new
and independent claims, not part of the previous trans­
action, based on the new facts.” Hatch v. Boulder Town

App. 51
Council, 471 F.3d 1142, 1150 (10th Cir. 2006) (empha­
sis in original).
Turning first to issue preclusion, Bellco argues
that the statute of limitations question Mr. McDonald
refers to throughout his Amended Complaint was ir­
refutably resolved in the Arapahoe County Litigation.
There, the state court held that Bellco filed its collec­
tions action within the six-year period provided by
Colo. Rev. Stat. § 13-80-103.5. (Dkt. #31-5 at 5-6.) Mr.
McDonald had an opportunity to litigate this issue and
did, in fact, litigate it. (Id.) Thus, this issue has been
decided for issue preclusion purposes. To the extent
that Mr. McDonald’s claims revolve around the “con­
spiracy to prosecute a civil action out-of-time in viola­
tion of Colorado’s statute of limitations,” which seems
applicable to all but his First Amendment claim (see
Dkt. # 14 <j{<I[ 132, 141, & 150), those claims must be
deemed barred.
Bellco also argues that Mr. McDonald’s state and
federal FDCPA claims are subject to dismissal under
the doctrine of claim preclusion. Bellco accurately
notes that Mr. McDonald brought FDCPA claims
against it in the Arapahoe County Litigation. (Dkt.
#31-4 at 22-24.) Those claims were dismissed. (Dkt.
#31-5 at 7.) Accordingly, Mr. McDonald’s FDCPA
claims are barred and must be dismissed.

App. 52
iii. Failure to State a Claim
Bellco argues that Mr. McDonald has failed to
state claims under Rule 12(b)(6) for several reasons.
The Court concurs.
First, to state a claim under § 1983, “a plaintiff
must allege the violation of a right secured by the Con­
stitution and laws of the United States, and must show
that the alleged deprivation was committed by a per­
son acting under color of state law.” West v. Atkins, 487
U.S. 42, 48 (U.S. 1988). “The traditional definition of
acting under color of state law requires that the de­
fendant in a § 1983 action have exercised power ‘pos­
sessed by virtue of state law and made possible only
because the wrongdoer is clothed with the authority
of state lawId. (quoting United States v. Classic, 313
U.S. 299, 326 (1941)). Here, Mr. McDonald has not al­
leged that Bellco was a state actor, and “merely resort­
ing to the courts and being on the winning side of a
lawsuit does not make a party a co-conspirator or a
joint actor with the judge.” Dennis v. Sparks, 449 U.S.
24, 28 (1980). Mr. McDonald cannot maintain a § 1983
claim against Bellco.
Mr. McDonald also brings a First Amendment
right-to-privacy claim against Bellco for “trespassing
his gated property to illegally search and seize his
property.” (Dkt. #14 'll 155.) However, the First Amend­
ment provides that “state actors ‘shall make no law . . .
abridging the freedom of speech.’ ” Hawkins v. City &
Cty. of Denver, 170 F.3d 1281, 1286 (10th Cir. 1999)
(emphasis added) (quoting U.S. Const, amend. I). Thus,

App. 53
the First Amendment only limits state—as opposed
to private—action. Dominion Video Satellite, Inc. v.
EchoStar Satellite L.L.C., 430 F.3d 1269, 1276 (10th
Cir. 2005). Bellco is not a state actor, and its initiation
of a collections lawsuit or replevin action against Mr.
McDonald is not state action. Accordingly, Mr. McDon­
ald’s First Amendment claim must be dismissed.
Next, Bellco argues that Mr. McDonald’s FDCPA
claims fail as a matter of law because Mr. McDonald
does not allege that Bellco is a “debt collector” within
the meaning of the applicable statutes. Both the state
and federal FDCPA statutes exclude from the term
“debt collector” those creditors who collect debts that
they originate. See 15 U.S.C. § 1692a(6)(A); Colo. Rev.
Stat. §§ 5-16-103(9). Here, although he disputes the
purpose for the loan, Mr. McDonald concedes that he
took out a loan from Bellco and that Bellco attempted
to collect on the debt. (Dkt. #14 W 51-52, 56-57.) Cred­
itors cannot be liable for collecting debts owed to them.
See Rader v. Citibank (South Dakota), N.A., 2007 WL
3119543, at *8 (D. Colo. Oct. 18, 2007) (“[Ulnder the
FDCPA, creditors cannot be held liable for collecting
on debts that originated with them.”); Commercial
Serv. of Perry, Inc. v. Fitzgerald, 856 P.2d 58, 62 (Colo.
App. 1993) (recognizing that those who originally ex­
tend credit are not subject to the Colorado FDCPA).
Accordingly, Mr. McDonald’s FDCPA claims fail to
state a cognizable claim for relief.

App. 54
iv. Improper Joinder
Finally, Bellco argues that it cannot properly be
joined in this action under the Federal Rules of Civil
Procedure. Rule 19 governs the required joinder of par­
ties and defines a “required party” as either one in
whose absence “the court cannot accord complete relief
among existing parties,” or one “who claims an interest
relating to the subject of the action. . . .” Fed. R. Civ. P
19(a)(l)(A)-(B). There is no indication from the plead­
ings that Bellco has an interest in Mr. McDonald’s
claims against Eagle County, or that its absence in this
case would affect these claims in any way.
Nevertheless, Bellco could be joined as a permis­
sive party under Rule 20 if “(A) any right to relief is
asserted against [it] jointly, severally, or in the alter­
native with respect to or arising out of the same
transaction, occurrence, or series of transactions or
occurrences; and (B) any question of law or fact com­
mon to all defendants will arise in the action.” Fed. R.
Civ. P. 20(a)(2). Mr. McDonald’s claims against Bellco
are entirely unrelated to its claims against Eagle
County. As Bellco points out, the only possible connec­
tion between the Defendants—that the writ of garnish­
ment in Eagle County Litigation was served on Mr.
McDonald’s Bellco bank account—has nothing to do
with Mr. McDonald’s claim that Bellco acted improp­
erly in its attempt to collect on an unpaid loan. This
provides a separate, alternative grounds for dismissal.

App. 55
c. Attorneys Fees and Costs
Both Defendants request an award of attorney
fees and costs against Mr. McDonald.
A prevailing party in a civil rights suit may re­
cover attorney fees. 42 U.S.C. § 1988(b). “[A] prevailing
defendant in a civil rights action may recover attorney
fees only if the suit was vexatious, frivolous, or brought
to harass or embarrass the defendant.” Mitchell v. City
of Moore, 218 F.3d 1190, 1203 (10th Cir. 2000) (quota­
tions omitted). “Although this is a demanding stan­
dard, and it is rare for attorney fees to be assessed
against a pro se plaintiff in a § 1983 action, a district
court has discretion to do so.” Olsen v. Aebersold, 149
F. App’x 750, 752 (10th Cir. 2005) (citations omitted).
Attorney fees are not available against a pro se litigant
unless the action is “meritless in the sense that it is
groundless or without foundation.” Hughes v. Rowe,
449 U.S. 5,14, (1980).
Furthermore, on a finding by the court that a fed­
eral FDCPA action “was brought in bad faith and for
the purpose of harassment, the court may award to the
defendant attorney’s fees reasonable in relation to the
work expended and costs.” 15 U.S.C.A. § 1692k(a)(3). In
Colorado FDCPA cases, an unsuccessful plaintiff “shall
be liable to each defendant in an amount equal to that
defendant’s cost incurred in defending the action, to­
gether with reasonable attorney fees as may be deter­
mined by the court.” Colo. Rev. Stat. § 5-16-113.
The Court finds that circumstances that would
justify an award of attorney fees are present in this

App. 56
case. Mr. McDonald’s claims were brought in federal
court after already being litigated in two separate
state court actions.7 There is no plausible basis for his
claims. They appear to have been brought for no legit­
imate purpose other than harassment have no reason­
able prospect of success. The Court’s conclusion is
bolstered by the fact that this is not Mr. McDonald’s
first unsuccessful attempt to use the federal court to
review state court decisions. See, e.g., McDonald v.
Arapahoe Cty., No. 18-1070, 2018 WL 6242214, at *3
(10th Cir. Nov. 28, 2018) (unpublished) (affirming dis­
trict court’s dismissal of Mr. McDonald’s collateral at­
tack on state eviction proceeding as being barred by
Rooker-Feldman doctrine); McDonald v. Colorado’s
5th Judicial Dist., 646 F. App’x 697, 700 (10th Cir.
2016) (unpublished) (under Younger, the district court
properly abstained and dismissed Mr. McDonald’s
federal claims arising from two Colorado state court
actions involving real property). Therefore, the imposi­
tion of costs and fees is appropriate. See Olsen, 149 F.
App’x at 753 (affirming imposition of attorney fees on
a pro se civil rights plaintiffs where the plaintiffs had
filed several federal lawsuits which involved jurisdic­
tional challenges and had failed to address previously
identified pleading deficiencies).

7 The Court notes that these claims were fully litigated. The
docket sheet for the Eagle County Litigation runs 18 pages, while
that of the Arapahoe County Litigation is eight pages long. (Dkt.
## 31-3 & 31-8.)

App. 57
IV. RECOMMENDATION
WHEREFORE, for the foregoing reasons, it is
hereby RECOMMENDED that
•

Defendants Eagle County, State of Colorado and
Bellco Credit Union’s Motions to Dismiss (Dkt.
##23 & 31) be GRANTED; that

•

Mr. McDonald’s Amended Complaint (Dkt. #14) be
DISMISSED WITH PREJUDICE; and that

•

Defendants be awarded their reasonable costs and
attorney fees related to defending Mr. McDonald’s
Amended Complaint.

NOTICE: Pursuant to 28 U.S.C. § 636(b)(1)(c)
and Fed. R. Civ. P. 72(b)(2), the parties have four­
teen (14) days after service of this recommenda­
tion to serve and file specific written objections
to the above recommendation with the District
Judge assigned to the case. A party may respond
to another party’s objections within fourteen
(14) days after being served with a copy. The Dis­
trict Judge need not consider frivolous, conclu­
sive, or general objections. A party’s failure to
file and serve such written, specific objections
waives de novo review of the recommendation by
the District Judge, Thomas v. Am, 474 U.S. 140,
148-53 (1985), and also waives appellate review
of both factual and legal questions. Makin v.
Colorado Dep’t of Corrections, 183 F.3d 1205,1210

App. 58
(10th Cir. 1999); Talley v. Hesse, 91 F.3d 1411,141213 (10th Cir. 1996).
BY THE COURT
Date: December 12,2018
Denver, Colorado

/s/ Reid Neureiter
N. Reid Neureiter
United States
Magistrate Judge

App. 59
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

REED KIRK MCDONALD,
Plaintiff - Appellant,
v.

No. 19-1101
(D.C. No. 1:18-CV00105-CMA-NRN)
(D. Colo.)

EAGLE COUNTY, a
quasimunicipal corporation
and political subdivision of
the State of Colorado, et al.,
Defendants - Appellees.

ORDER
Before TYMKOVICH, Chief Judge, HARTZ, and
BACHARACH, Circuit Judges.

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmit­
ted to all of the judges of the court who are in regular
active service. As no member of the panel and no judge

App. 60
in regular active service on the court requested that
the court be polled, that petition is also denied.
Entered for the Court
/s/ Christopher M. Wolpert______________
CHRISTOPHER M. WOLPERT, Clerk

App. 61
Colorado Court of Appeals
101 West Colfax Avenue,
Suite 800
Denver, CO 80202

COPIES MAILED
TO COUNSEL
OF RECORD
Tr. Ct. Judge—Tr. Ct.
Clerk

Eagle County
2009CV604

AND

PROSC

Plaintiff-Appellant:

ON

10-5-11

Kirk McDonald,

BY

SH

v.

Court of Appeals Case
Number:
2011CA1537

Defendant-Appellee:
Zion First National Bank.
NA.

ORDER OF COURT
TO: ALL PARTIES:
Upon consideration of the motion for extension of
time to file a notice of appeal out of time, the Court
notes that appellant has not accompanied that motion
with the notice of appeal. Appellant shall file the notice
of appeal with the attached orders of the district court
before the Court rules on the motion.
The Court ACCEPTS the response to the motion
filed by appellee. However, the response raises two ju­
risdictional questions to which the Court ORDERS
both parties to respond.
First, appellee shall clarify if it served a copy of the
March 18,2011, order on appellant, and provide a copy
of the certificate of service. Assuming without deciding

App. 62
that the March 18, 2011, order is the final order in the
case, any notice of appeal would be due 45 days from
the date the order was served on appellant. C.R.C.P.
58(a); see also Padilla v. D.E. Frey & Co., Inc., 939 P.2d
475,476 (Colo. App. 1997).
Second, the March 18, 2011, order is a voluntary
dismissal of the cross-claims without prejudice. There­
fore, it appears that regardless of service of the order
on appellant, it was not a complete resolution of the
action that would make the March 3, 2011, order ap­
pealable absent certification under C.R.C.P. 54(b). Dis­
missal of a claim without prejudice does not constitute
a final judgment for purposes of appeal because the
factual and legal issues underlying the dispute have
not been resolved. C.R.C.P. 41(a)(2); District 50 Metro.
Recreation Dist. v. Burnside, 157 Colo. 183,186-87,401
P.2d 833, 835 (1965); Brody v. Bock, 897 P.2d 769, 777
(Colo. 1995). Moreover, allowing the appeal of claims
dismissed with prejudice while other claims have been
dismissed without prejudice may permit an appeal
that is an end-run around the final judgment rule since
the claims voluntarily dismissed without prejudice
may be renewed. See e.g. Emmitt v. Dickey, 188 F.
App’x. 681, 683 (10th Cir. 2006); Rabbi Jacob Joseph
Sch. v. Province of Mendoza, 425 F.3d 207, 210 (2d Cir.
2005).
IT IS THEREFORE ORDERED that both parties shall
show cause, if any there is, in writing and within 14
days from the date of this Order, why the motion for
extension of time to file an appeal should not be

App. 63
dismissed because there is not yet a final, appealable
order.
BY THE COURT
Roy, J.
Webb, J.
Fox, J.
pb/3j

App. 64
Colorado Court of Appeals
101 West Colfax Avenue,
Suite 800
Denver, CO 80202

COPIES MAILED
TO COUNSEL
OF RECORD
Tr. Ct. Judge—Tr. Ct.
Clerk

Eagle County
2009CV604

AND

PROSC

Plaintiff-Appellant:

ON

11-2-11

Kirk McDonald,

BY

SH

v.

Court of Appeals Case
Number:
2011CA1537

Defendant-Appellee:
Zion First National Bank.
NA.

ORDER OF COURT
Upon consideration of appellant’s response to the
court’s Order to Show Cause and the reply filed by ap­
pellee, the court determines that because the cross­
claims were dismissed without prejudice, an appeala­
ble order has not entered.
IT IS THEREFORE ORDERED that appellant
has 30 [days] to provide this Court with an order from
the district court granting certification pursuant to
C.R.C.P. 54(b), or the appeal shall be dismissed without
prejudice.
The Court FURTHER NOTES that it does not ap­
pear that the pro se plaintiff was ever properly served
with the Orders of the district court, and that if the
district court requires that counsel for the opposing

App. 65
party to provide copies to a pro se party, a copy of the
certificate of service must be filed in the district court.
If this Court had found that a final and appealable or­
der had been entered, it would have found that the
time for filing an appeal had not started to run because
there is no evidence that plaintiff ever was served a
copy of the district court’s order. See C.R.C.P. 58(a); Pa­
dilla v. D.E. Frey & Co., 939 P.2d 475 (Colo. App. 1997)
BY THE COURT:
Roman, J.
Furman, J.
J. Jones, J.
pb/3j

App. 66
COLORADO COURT
OF APPEALS
Court Address: 2 East
14th Ave.
Denver, Colorado 80203
Trial Court
District Court,
Eagle County
Case # 2009CV604
The Honorable Judge
ACOURT USE ONLY*
Robert Thomas Moorhead
Appellate Case#
R. KIRK MCDONALD
2012CA 2624
Plaintiff - Appellant:
Appellate Case#
v.
2012CA 295
ZIONS FIRST
Appellate Case#
NATIONAL BANK
2011CA 1537
Defendant - Appellee
Attorneys for PlaintiffAppellant
Kirk McDonald/Pro Se
6214 S. Datura St.
Littleton, CO 80120
720-272-8598,
kirkmcdonald56@gmail .com
Attorney for Defendant Appellee
Danile R. Delaney
Bloom Murr Accomazzo
& Siler
PC. 410 17th Street,
Suite 2400

GRANTED DENIED
1-14 .2013
This court does not have
the authority to grant
the requested relief. Any
further pleadings filed
without a certificate of
service will be summar­
ily stricken. CAR 25
Ib/pa

App. 67
Denver, Colorado 80202
303-534-2277,
ddelaney@bmalaw.com
EMERGENCY MOTION FOR CONTEMPT, RE:
R. KRIK MC DONALD
v.
HONORABLE ROBERT THOMAS MOORHEAD
THE STATE OF COLORADO
EAGLE COUNTIES CLERK’S OFFICE
ZIONS FIRST NATIONAL BANK

App. 68
RID:D0032017CV000162-000154
Print Minute Orders
Status:

1/25/18

10:32 AM

District Court, Arapahoe County

Case #: 2017 CV 000162 Div/Room: 202 Type: Money
BELLCO CREDIT UNION, vs. MCDONALD. R KIRK
FILE DATE EVENT/FILING/PROCEEDING
Minute Order (print)
1/25/2018
DATE FILED: January 25,2018
JUDGE: EBV

CLERK:

REPORTER:

STATUS CONFERENCE
JUDGE: VOLZ CLERK DJB DIV.202 FTR: 10:02 AM
CSL DAVID BAUER AND RYAN STEVENS AP­
PEAR FOR PLAINTIFF
DEFENDANT R. KIRK MCDONALD DOES NOT AP­
PEAR
THE COURT RECEIVED TODAY VIA EMAIL DEF’S
PETITION FOR REMOVAL TO FEDERAL COURT
AND REQUEST TO VACATE TODAY’S HEARING.
THE DOCUMENTS HAVE NOT BEEN FILED WITH
THE CLERK’S OFFICE. THE COURT DID NOT RE­
SPOND TO THE EMAILS. THE COURT WILL NOT
STAY THIS CASE BASED ON 348 P.3D 957 (2015).
THE NOTICE OF REMOVAL FILED BY DEF USES
THIS CASE NUMBER (17CV162), HOWEVER THE
CASE IS CAPTIONED “PLAINTIFF R. KIRK
MCDONALD V EAGLE COUNTY’ AND GOES ON

App. 69
TO REFERENCE THIS CASE IN THE BODY OF THE
PLEADING.
DEF’S REMOVAL PETITION IS UNTIMELY PUR­
SUANT TO 28 USC 1446 AND 28 USC 1441. THE
COURT FINDS THAT THERE IS NO COLORABLE
BASIS FOR REMOVAL TO FEDERAL COURT. DEF’S
REQUEST FOR EXTENSION OF TIME TO RE­
SPOND TO BELLCO’S MOTION FOR SUMMARY
JUDGMENT DID NOT ASK FOR A SPECIFIC
AMOUNT OF TIME. THE COURT WAS PREPARED
TO HEAR DEF’S ARGUMENT AT TODAY’S CON­
FERENCE.
THE COURT GRANTS DEF’S REQUEST FOR EX­
TENSION OF TIME TO RESPOND TO MOTION FOR
SUMMARY JUDGMENT FOR 21 DAYS FROM TO­
DAY. DEF MUST FILE HIS RESPONSE TO THE MO­
TION FOR SUMMARY JUDGMENT BY 02/15/2018.
PLAINTIFF’S REPLY WILL BE DUE 03/01/2018.
DEF HAS REQUESTED THE DEPOSITION OF
BELLCO (PRESUMABLY 30(B)(6) DEPOSITION).
DEF IS ORDERED TO PROVIDE PLAINTIFF’S
WITH THE PROPOSED AREAS OF INQUIRY TO
WITHIN 7 DAYS, OR BY 02/01/2018.
THE COURT ORDERS THAT AREAS OF INQUIRY
SHALL ONLY RELATE TO THE DISPUTE IN THIS
CASE, WHICH IS THE DEBT THAT BELLCO AL­
LEGES MR. MCDONALD OWES, AND MATTERS
RELATED TO THE AMOUNT OF DEBT, DATE OF
DEBT, PAYMENTS ON THE DEBT, OR ANY

App. 70
COMMUNICATION FROM BELLCO RELATED TO
INTEREST AND/OR EXTENDING PAYMENTS. THE
COURT IS SPECIFICALLY PRECLUDING DEF
FROM CONDUCTING A DEPOSITION INTO ANY­
THING RELATED TO EAGLE COUNTY, OTHER
LAWSUITS IN WHICH THIS DEBT IS NOT AN IS­
SUE, OR ANY PARTIES OTHER THAN BELLCO. IF
DEF DOES ISSUE A 30(B)(6) DEPOSITION AND
LAYS OUT CATEGORIES THAT DO NOT FIT INTO
THESE REQUIREMENTS, BELLCO MAY SUBMIT A
REQUEST FOR PROTECTION OR DECLINE TO
ANSWER THE QUESTIONS AT THE DEPOSITION.
IF DEF DOES NOT ISSUE PROPOSED AREAS OF
INQUIRY TO BELLCO W/IN 7 DAYS OF TODAY (BY
02/01/2018), THE COURT WILL DECLINE TO
AUTHROIZE DEF TO SCHEDULE SUCH A DEPO­
SITION.
MEDIATION: THE COURT IS NOT CERTAIN MEDI­
ATION WILL BE HELPFUL UNLESS DEF IS IN­
TERESTED IN PARTICIPATING. THE COURT
WAIVES THE REQUIREMENT OF MEDIATION,
BUT WILL NOT PRECLUDE MEDIATION. IF THE
PARTIES AGREE TO MEDIATION, IT MUST BE
COMPLETED BY 03/02/2018.
DUE TO THE MOTION FOR SUMMARY JUDG­
MENT BRIEFING SCHEDULE, PRETRIAL READI­
NESS CONFERENCE IS RESET TO 03/06/2018 AT
1:30 PM. TRIAL SET ON 04/02/2018 WILL REMAIN
AS CURRENTLY SET.
TRIAL MANAGEMENT ORDER IS DUE 03/26/2018.

App. 71
PLAINTIFF’S COUNSEL WILL DRAFT THE TRIAL
MANAGEMENT ORDER AND SEND TO DEF BY
EMAIL BY 03/21/2018.
IF NO RESPONSE FROM DEF WITH HIS ADDI­
TIONS/COMMENTS BY 5PM ON 03/23/2018, PLAIN­
TIFF MAY SUBMIT THE TRIAL MANAGEMENT
ORDER ON 03/26/2018 WITHOUT DEF’S INPUT.
THE COURT ORDERS THAT COMMUNICATION
BETWEEN
PLAINTIFF AND
DEFENDANT
SHOULD BE IN WRITING ONLY (EMAIL, LETTER
OR TEXT MESSAGE).

App. 72
Colorado Court of Appeals DATE FILED:
September 21, 2020
2 East 14th Avenue
Denver, CO 80203
Arapahoe County
2017CV162
Plaintiff-Appellee:
Bello Credit Union,
v.
Defendant-Appellant:
R Kirk McDonald

Court of Appeals Case
Number:
2020CA1 175

ORDER OF THE COURT
To: The Parties and the District Court
Upon consideration of the response to the order to
show cause, the Court ORDERS that the order to show
cause is made absolute.
IT IS THEREFORE ORDERED that the appeal is
DISMISSED without prejudice for lack of a final, ap­
pealable judgment.
BY THE COURT
Dailey, J.
Navarro, J.
Brown, J.

App. 73
ARAPAHOE DISTRICT
COURT
Court Address:
7325 South Potomac Street
Centennial, Colorado 80112
Bellco Credit Union
Plaintiff/
Third Party Defendant,
v.
R. KIRK MCDONALD,
Defendant/
Third Party Plaintiff.

^ Filed:
JAN 24 2018
Clerk of the
Centennial Court
Arapahoe County,
Colorado
ACOIJR,T USE ONLY*
2017CV162

Counsel for Defendant
R. Kirk McDonald private
attorney general - pro se
5856 S. Lowell Blvd.
Suite 32-163
Littleton, Colorado 80123
kirkmcdonald56@gmail.com
DEFENDANT/THIRD PARTY PLAINTIFF’S
NOTICE FOR REMOVAL OF CASE TO THE
UNTIED DISTRICT COURT FOR THE
DISTRICT OF COLORADO
COMES NOW, Third-Party Plaintiff/Defendant
Reed Kirk McDonald, hereafter (Defendant) provides
notice to this Court for removal of Arapahoe County
Case No. 2017cvl62 to the United States District
Court for the District of Colorado as of January 24,
2018.

App. 74
Provided for the Court is a complimentary and ser­
vice of the “Notice of Removal” to the federal courts
filed in this Court January 24,2018 and in the District
of Colorado on January 24, 2018.

App. 75
Kirk Mcdonald <kirkmcdonald56@gmail.com>
Jun 30, 2020, 8:37 AM
to Michael
Mr. Buroniconti,
[ICON]
Michael Buoniconti <MBuoniconti@dal8.state.
co.us> Jul 1, 2020,11:54 AM
to me
Hello Mr. McDonald
Sorry for the delayed response. I spoke with our Chief
Managing DDA about this case. I am following up with
the Arapahoe County Clerk of the Courts Office about
the standard operating procedure when accepting a
motion. Frankly, I had several safety related issues
come up and have not contacted their office to date. I
will follow up with them early next week.
During the conversation with Chief, there were several
issues I addressed concerning criminal charges associ­
ated with Judge Voltz specifically. One main issue is
Judge Voltz actions are not considered testimony, nor
is a Judge’s statements sworn testimony related to the
perjury statute in CRS.
That being said, our Office is only looking at this case
for criminal actions, not administrative actions that
would be addressed by the Colorado Commission on
Judicial Discipline.
I am looking to finish the criminal aspect of this inves­
tigation with the Arapahoe Clerk of the Courts Office

App. 76
and will complete a report of my findings. I will give
you a call and discuss my findings prior to finalizing
my report.

